No. 19-329
IN THE SUPREME COURT OF THE UNITED STATES
WINSTON-SALEM INDUSTRIES FOR THE BLIND,
PETITIONER
V.

PDS CONSULTANTS, INC., ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT OPPOSITION, via first-class mail,
postage prepaid, this 9TH day of December 2019.
[See Attached Service Listj
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5436 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 9, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2019.
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0329
WINSTON-SALEM INDUSTRIES FOR THE BLIND
PDS CONSULTANTS, INC., ET AL.

JESSICA C. ABRAHAMS
DRINKER BIDDLE & REATH LLP
1500 K STREET, NW
WASHINGTON, DC 20005
202-230-5371
ROBERT REEVES ANDERSON
ARNOLD & PORTER KAYE SCHOLER LLP
370 SEVENTEENTH STREET
SUITE 4400
DENVER, CO 80202-1370
303-863-2325
REEVES.ANDERSON@ARNOLDPORTER.COM
THOMAS M. BONDY
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15THSTREET,NW
WASHINGTON, DC 20005
ANGELA I. CARMAON
POST OFFICE BOX 2511
WINSTON-SALEM, NC 27102
336-747-7404
ANGELAC@CITYOFWS.ORG
LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE. C
OM

DAVID SCOTT GALLACHER
SHEPPARD MULLIN RICHTER & HAMPTON
LLP
2099 PENNSYLVANIA AVENUE, NW
SUITE 100
WASHINGTON , DC 20006
202-747-1921
DGALLACHER@SHEPPARDMULLIN.COM
STEPHANIE G. HERRERA
MUNGER, TOLLES & OLSON LLP
560 MISSION STREET
TWENTY-SEVENTH FLOOR
SAN FRANCISCO, CA 94105-3089
415-512-4063
STEPHANIE.HERRERA@MTO.COM
TRACYE WSINFREY HOWARD
WILEY REIN LLP
1776 K STREET NW
WASHINGTON, DC 20006
202-719-7000
TWHOWARD@WILEYREIN.COM
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM
DONALD B. VERRILLI
MUNGER, TOLLES & OLSON LLP
1155 F. STGREET,NW
7TH FLOOR
WASHINGTON, DC 20004
202-220-1100
DONALD .VERRILLI@MTO .COM

WESLEY E. WEEKS
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-7569
WWEEKS @WILEYREIN. COM

